BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily l\Iullins, hereby certify that 1 copy of the
foregoing Brief in Opposition for No. 20-353, J.H., By
Conservator, Betty Harris, Petitioner v. Williamson
County, Tennessee, et al., was sent via Three Day
Service to the U.S. Supreme Court, and via Three Day
Service and e-mail to the following parties listed below,
this 12th day of October, 2020:
Larry L. Crain
Crain Law Group
5214 Maryland Way
Suite 402
Brentwood, TN 37027
(615) 376-2600
crain.larry@gmail.com

Counsel for Petitioner
Lisa M. Carson
Counsel of Record
Lee Ann Thompson
Buerger, Moseley & Carson, plc
306 Public Square
Franklin, TN 37064
(615) 794-8850
lcarson@buergerlaw.com
lthompson@buergerlaw.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 12, 2020.

&re rO~

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

